            DEPARTMENT OF
            DEPARTMENT OF HEALTH
                          HEALTH & HUMAN SERVICES
                                 & HUMAN                                                        OFFICE
                                                                                                OFFICE OF
                                                                                                       OF INSPECTOR GENERAL

(~.~

"'+,~
 ...
                                                                                                 Office of
                                                                                                 Offce  of Audit
                                                                                                           Audit Services,
                                                                                                 Public Ledger
                                                                                                          Ledger Building,
                                                                                                 150S.S.Independence
                                                                                                 150
                                                                                                                           RegionILL

                                                                                                                 Servce, Region   III
                                                                                                                     Building, Suite
                                                                                                          Independence MaIl
                                                                                                                               Suite 316
                                                                                                                           Mall West
                                                                                                                                     316

                                                                                                 Philadelphia,
                                                                                                 Philadelphia,PA   PA19106-3499
                                                                                                                       19106-3499

                                                          AUG 552009
                                                          AUG   2009


        Report Number: A-03-07-00026
               Number: A-03-07-00026

        Mr. Todd Kerr
        Senior Vice President and Chief Compliance
                                        Compliance Officer
                                                   Offcer
        Fresenius Medical Care
        Fresenius Medical  CareNorth
                                Nort America
                                     America
        920 Winter Street
                                 02451-1457
        Waltham, Massachusetts 02451-1457

                 Kerr:
        Dear Mr. Kerr:

        Enclosed is
        Enclosed is the
                    the u.S.
                        V.S. Department of Health
                             Deparment of  Health and
                                                  and Human Services
                                                            Services (HHS),
                                                                      (HHS), Office of Inspector
                                                                             Office of
        General (OIG), final report entitled "Payments for Epogen Administered at Fresenius Medical
        Care-Beckley,
        Care-Beckley, Beckley, West Beckley,      West
                                    Virginia." We wil       Virginia."
                                                      forward a copy of 
  We will forward a copy of ths
                                                                                                      this report
                                                                                                            report to
                                                                                                                   to the
                                                                                                                       the HHS
        action official         noted on
                   official noted         on the
                                               the following
                                                     followingpage   page for
                                                                           forreview
                                                                               reviewand
                                                                                      andany
                                                                                          any action
                                                                                              action deemed
                                                                                                     deemed necessary.
                                                                                                               necessar.

        The HHS action official will  make final
                                  wil make   final determnation
                                                   determinationasastotoactions
                                                                         actions taken
                                                                                  taken on
                                                                                        on all
                                                                                           all matters
                                                                                               matters reported.
                                                                                                        reported.
        We request that you  respond  to this official within
                         you respond to this official withn   30 days   from  the date of this letter.
                                                                        from the date of this letter.  Your
        response should present any comments or additional information that you believe may have a
        bearing on the
        bearng     the final determnation.
                             determination.

                                                          U.S.C. § 552, OIG reports generally are made
        Pursuant to the Freedom of Information Act, 5 V.S.C.
        available to the public to the extent that information in the report is not subject to exemptions in
        the Act. Accordingly,
                 Accordingly, this
                                this report
                                     report wil
                                            willbe
                                                 beposted
                                                    postedon
                                                           onthe
                                                              the Internet
                                                                   Internet at
                                                                            at http://oig.hhs.gov.
                                                                               http://oig.hhs.gov.

        If you have any questions or comments about this report, please do not hesitate to call me at
        (215)
        (215) 861-4470
              861-4470 or
                        or through email at
                           though email  at Stephen.Virbitsky(ßoig.hhs.gov,
                                            Stephen.Virbitsky@oig.hhs.gov, or
                                                                            or contact
                                                                               contact Bernard
                                                                                       Bernard Siegel,
                                                                                               Siegel,
        Audit Manager,
               Manager, at
                        at (215)
                           (215) 861-4484
                                 861-4484or orthrough
                                               though email at Bernard.Siegel@oig.hhs.gov.
                                                               Bernard.Siegel(ßoig.hhs.gov. Please refer
        to report number A-03-07-00026 in all correspondence.

                                                                Sincerely,

                                                               ~ftL J~
                                                               ~ftLJ~
                                                                Stephen Virbitsky
                                                                Regional Inspector General
                                                                  for Audit Services


        Enclosure
Page 2 - Mr.
         Mr. Todd Kerr


Direct Reply to HHS Action
                    Action Official:
                           Offcial:

Nanette Foster Reilly,
               Reily, Consortium
                        Consortium Administrator
                                   Administrator
Consortum for
Consortium  forFinancial
                FinancialManagement
                          Management&  & Fee
                                         Fee for
                                              for Service
                                                  Service Operations
                                                          Operations (CFMFFSO)
                                                                     (CFMFFSO)
Centers for Medicare & & Medicaid Services
         12th Street,
601 East 12th Street, Room
                      Room 235
        City, Missouri
Kansas City,  Missouri 64106
rokcmora@cms.hhs.gov
rokcmora (ß cms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       PAYMENTS FOR 

  EPOGEN ADMINISTERED AT 

  FRESENIUS MEDICAL CARE–

         BECKLEY,

   BECKLEY, WEST VIRGINIA





                    Daniel R. Levinson

                     Inspector General 


                       August 2009

                      A-03-07-00026

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. Individuals diagnosed with end-stage renal disease often suffer from anemia and
Epogen lessens the effects of anemia for those patients. Epogen doses are generally adjusted by
a physician based on a review of the patient’s medical record. For facilities that use a
preestablished dosing algorithm, a nurse may also adjust the Epogen dose to maintain an optimal
hematocrit (red blood cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

Fresenius Medical Care—Beckley Facility (Beckley), located in Beckley, West Virginia, is one
of more than 1,500 renal dialysis facilities operated by Fresenius Medical Care North America.
Beckley provides 21 renal dialysis treatment stations and received payments totaling $4,881,172
for Medicare services provided from January 1, 2004, through June 30, 2006. Of this amount,
$1,698,935 was for the administration of Epogen. During our audit period, Beckley used dosing
algorithms to adjust patient Epogen doses.

OBJECTIVE

Our objective was to determine whether Beckley administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in
Beckley’s medical records.

SUMMARY OF FINDING

For 72 of the 100 sampled claims, Beckley administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Beckley’s medical records. However, Beckley did not meet the Medicare payment requirements
for some dates of service for 28 claims. In those instances, we identified discrepancies in
Beckley’s medical and billing records between the units of Epogen ordered by the patients’
attending physicians and the units administered to the patients, billed by Beckley, and paid by
Medicare.



                                                i
   •	 For 17 claims, with errors totaling $1,968, Beckley billed and Medicare paid for more
      units of Epogen than were ordered. For 16 claims, there were discrepancies in Beckley’s
      medical and billing records between the units of Epogen ordered by the attending
      physician using a preestablished dosing algorithm and the units of Epogen calculated by
      the administering nurse, administered and billed by Beckley, and paid by Medicare. For
      one claim an assigned staff member did not update the Epogen dose in the Fresenius
      System and a patient received higher doses than ordered by the attending physician.
      Based on the sample results, we estimate that Beckley received overpayments of at least
      $25,886 for the administration of Epogen from January 1, 2004, through June 30, 2006.

   •	 For one claim, Beckley’s medical and billing record reflected a discrepancy between the
      units of Epogen ordered by the patient’s attending physician and the units administered to
      the patient, billed by Beckley, and paid by Medicare. For purposes of this report, we
      considered this error procedural because it did not result in an overpayment.

   •	 For 10 claims, Beckley’s medical records reflected errors in documenting the ordering
      and administration of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For the purposes of this report, we considered these errors
      procedural because they did not result in overpayments.

The errors related to these 28 claims occurred because nurses responsible for administering
Epogen did not always follow the policies and procedures in the Fresenius Manual for ensuring
that the units of Epogen administered were equal to the dose ordered by the attending physician
as reflected in the patients’ medical records. Also, when nurses changed Epogen doses using the
preestablished dosing algorithms ordered by attending physicians, the new doses either were not
calculated correctly or physicians did not sign the order identifying the reason for deviating from
the preestablished dosing algorithm. As a result, Beckley received at least $25,886 in
overpayments and patients did not always receive the amounts of Epogen ordered by attending
physicians. When attending physicians’ orders are not followed, quality of care may be affected.


RECOMMENDATIONS

We recommend that Beckley:

   •	 refund the $25,886 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by the
      patients’ physicians and the units administered to the patient, billed by Beckley, and paid
      by Medicare.




                                                ii
FRESENIUS COMMENTS

In comments on our draft report (see Appendix C), Fresenius stated that it will contact the
intermediary about refunding the $25,886 in overpayments and that the nursing staff will
undergo a training program to improve compliance with policies and procedures relating to the
ordering and administration of Epogen.




                                              iii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page

INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1         

              Medicare ................................................................................................................1      

              Epogen Therapy for End-Stage Renal Disease Patients ........................................1 

              Medicare Requirements and Payments for End-Stage Renal Disease Services ....2 

              Fresenius Medical Care—Beckley ........................................................................2                        

              Fresenius’s Policy Manual and Medical Information System ...............................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3 

               Objective ................................................................................................................3    

               Scope......................................................................................................................3   

               Methodology ..........................................................................................................3        


FINDINGS AND RECOMMENDATIONS ..............................................................................4 


          FEDERAL REQUIREMENTS..........................................................................................5                     

               Medical Recordkeeping .........................................................................................5               

               Medicare Payment Procedures...............................................................................5                    


          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS ..........5 

               Epogen Doses Not Properly Calculated.................................................................6 

               More Units of Epogen Administered, Billed, and Paid Than Ordered..................6 

               Estimate of Overpayments.....................................................................................7                 


          CLAIM WITH A PROCEDURAL ERROR THAT RESULTED IN A 

            DISCREPANCY............................................................................................................7 


          CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN 

            DISCREPANCIES.........................................................................................................7 


          FERESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED .............8 


          RECOMMENDATIONS...................................................................................................9                 


          FRESENIUS COMMENTS ..............................................................................................9                  





                                                                   iv
APPENDIXES

    A – SAMPLING METHODOLOGY

    B – SAMPLE RESULTS AND ESTIMATES

    C – FRESENIUS MEDICAL CARE NORTH AMERICA COMMENTS




                                v
                                              INTRODUCTION                                                            


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1

Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3

Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by attending physicians. It requires the nurse on duty to gather information
from the patient’s medical record and determine the correct dose of Epogen to maintain an
optimal hematocrit level. Based on the algorithm, a nurse may decrease, increase, or maintain
the Epogen dose or temporarily suspend the dose for one or more treatments. Fresenius Medical
Care—Beckley (Beckley) used algorithms to determine the dose of Epogen to administer to its
patients.




1
 Epogen is an “erythropoiesis-stimulating agent,” manufactured by Amgen, which stimulates the production of red
blood cells.
2
    CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4.
3
 After our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
“erythropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter] . . . .” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available online at http://www.fda.gov/cder/foi/label/2007/103234s5122lbl.pdf.
Accessed on April 23, 2009.


                                                          1

Medicare Requirements and Payments for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debt, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Fresenius Medical Care—Beckley

Fresenius Medical Care North America (Fresenius), located in Waltham, Massachusetts, is a
wholly owned subsidiary of Fresenius Medical Care AG & Company KGaA, located in Bad
Homburg, Germany. Fresenius provides products and services for individuals with chronic
kidney failure.

Beckley, located in Beckley, West Virginia, is one of more than 1,500 renal dialysis facilities
operated by Fresenius. Beckley provides treatment for end-stage renal disease at 21 renal
dialysis stations. It received payments totaling $4,881,172 for Medicare services provided from
January 1, 2004, through June 30, 2006. Of this amount, $1,698,935 was for the administration
of Epogen.

Fresenius’s Policy Manual and Medical Information System

To assist in its facilities’ efforts to comply with requirements under Federal and State law,
Fresenius established a medical record policy and documentation procedures in its Policy
Manual No. 138-030-040-2 (Fresenius Manual). The Fresenius Manual requires that each
facility must develop a process to identify any change in the ordered prescription drugs and enter
the change and the treatment in Fresenius’s Medical Information System (Fresenius System).
The Fresenius System prints a treatment sheet for each patient that lists selected patient

4
 During the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.


                                                         2

information from the previous treatment, the latest results of laboratory tests, and the required
services scheduled for the day’s treatment. The Fresenius Manual requires that each scheduled
service on the treatment sheet must be initialed or signed by the administering nurse, as
completed. The completed services, as well as any changes noted, must be entered into the
Fresenius System on a timely basis.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Beckley administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in
Beckley’s medical records.

Scope

Our review covered 2,829 monthly claims totaling $1,698,935 for Epogen administered by
Beckley from January 1, 2004, through June 30, 2006.

We limited our review of Beckley’s internal controls to the administration of and billing for
Epogen, including medical recordkeeping. The objective of our review did not require an
understanding or assessment of Beckley’s complete internal control structure. We did not
determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at the Fresenius headquarters in Waltham, Massachusetts.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance related to the treatment of
      end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

   •	 reviewed applicable State laws, regulations, and guidance related to Beckley’s policies
      and procedures and the Fresenius Manual;

   •	 reviewed Beckley’s policies and procedures, including the Fresenius Manual, and its
      medical recordkeeping and billing practices;

   •	 interviewed Fresenius officials;

   •	 identified and assessed the adequacy of internal controls related to the administration of
      and billing for Epogen; and

   •	 identified a sampling frame of all claims in the CMS claims history file with Epogen
      administered at Beckley from January 1, 2004, through June 30, 2006, and:


                                                 3

       o	 selected from the sampling frame a simple random sample of 100 claims for Epogen
          totaling $58,589 and

       o	 for each sampled claim, compared the units of Epogen ordered by the Beckley
          attending physician, administered to the patient, billed by Beckley, and paid by
          Medicare to determine whether such units, as reflected in Beckley’s medical and
          billing records, were consistent with each other.

Appendix A provides a description of the sampling methodology and Appendix B details the
sample results and estimates the total overpayments for Epogen.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

For 72 of the 100 sampled claims, Beckley administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Beckley’s medical records. However, Beckley did not meet the Medicare payment requirements
for some dates of services for 28 claims. In those instances, we identified discrepancies in
Beckley’s medical and billing records between the units of Epogen ordered by the patients’
attending physicians and the units administered to the patients, billed by Beckley, and paid by
Medicare.

   •	 For 17 claims, with errors totaling $1,968, Beckley billed and Medicare paid for more
      units of Epogen than were ordered. For 16 claims, there were discrepancies in Beckley’s
      medical and billing records between the units of Epogen ordered by the attending
      physician using a preestablished dosing algorithm and the units of Epogen calculated by
      the administering nurse, administered and billed by Beckley, and paid by Medicare. For
      one claim an assigned staff member did not update the Epogen dose in the Fresenius
      System and a patient received higher doses than ordered by the attending physician.
      Based on the sample results, we estimate that Beckley received overpayments of at least
      $25,886 for the administration of Epogen from January 1, 2004, through June 30, 2006.

   •	 For one claim, Beckley’s medical and billing record reflected a discrepancy between the
      units of Epogen ordered by the patient’s attending physician and the units administered to
      the patient, billed by Beckley, and paid by Medicare. For purposes of this report, we
      considered this error procedural because it did not result in an overpayment.

   •	 For 10 claims, Beckley’s medical records reflected errors in documenting the ordering
      and administration of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For the purposes of this report, we considered these errors
      procedural because they did not result in overpayments.


                                               4

The errors related to these 28 claims occurred because nurses responsible for administering
Epogen did not always follow the policies and procedures in the Fresenius Manual for ensuring
that the units of Epogen administered were equal to the dose ordered by the attending physician
as reflected in the patients’ medical records. Also, when nurses changed Epogen doses using the
preestablished dosing algorithms ordered by attending physicians, the new doses either were not
calculated correctly or physicians did not sign the order identifying the reason for deviating from
the preestablished dosing algorithm. As a result, Beckley received at least $25,886 in
overpayments and patients did not always receive the amounts of Epogen ordered by attending
physicians. When attending physicians’ orders are not followed, quality of care may be affected.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition for coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared Beckley’s medical and billing records with respect to the
units of Epogen (1) ordered by the patients’ attending physicians, (2) administered by the nurse
to the patient, (3) billed by Beckley, and (4) paid by Medicare. For 16 claims with questioned
amounts totaling $1,938, there were discrepancies in Beckley’s medical and billing records
between the units of Epogen ordered by the attending physician using a preestablished dosing
algorithm and the units of Epogen calculated by the administering nurse, administered and billed
by Beckley, and paid by Medicare. For one claim with questioned amounts totaling $30, an
assigned staff member did not update the Epogen dose in the Fresenius System and a patient

5
 This condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
at 42 CFR § 494.170.


                                                      5

received higher doses than ordered by the attending physician. Beckley administered, billed, and
was paid for higher doses than ordered by the attending physician, as documented in Beckley’s
medical and billing records.

Epogen Doses Not Properly Calculated

For 16 claims, administering nurses did not follow the preestablished dosing algorithms, which
were established by the ordering physician, to determine patients’ Epogen doses. The algorithm
requires that administering nurses determine the correct dose of Epogen to maintain an optimal
hematocrit level. Based on the algorithm, a nurse may decrease, increase, or maintain the
Epogen dose or temporarily suspend the dose for one or more treatments.

The Fresenius Manual states that: “The algorithm must be followed ‘as written’. Any deviation
can only occur after the nurse has discussed the proposed deviation with the patient’s physician
and a specific order allowing the deviation has been written in the patient’s medical record.”
The Fresenius Manual further states that: “Medication dose changes based upon an algorithm
must be accurate.”

For the 16 claims, the Beckley medical record contained a signed copy of the physicians’
algorithm order used to determine the Epogen dose based on the patient’s hemoglobin level. The
medical record reflected that administering nurses adjusted the Epogen doses using the patients’
algorithm. However, for the 16 claims administering nurses did not make changes to the Epogen
doses accurately or according to the algorithm. For example:

   •	 For one claim, the Beckley medical record included the attending physician’s order for
      Epogen, dated January 19, 2005, using a preestablished dosing algorithm. On March 18,
      2005, using the algorithm and the patient’s hemoglobin level, the administering nurse
      established an Epogen dose of 12,800 units. However, on April 22, 2005, based on the
      patient’s hemoglobin level of 14.4 grams per deciliter, the administering nurse decreased
      the Epogen dose by 25 percent, from 12,800 to 9,600 units. Using the preestablished
      dosing algorithm the administering nurse should have decreased the Epogen dose by
      50 percent, from 12,800 to 6,400 units. The attending physician did not write a specific
      order allowing the deviation from the patient’s algorithm. As a result, for three
      treatments during the month reviewed, the patient received, Beckley billed, and Medicare
      paid for 9,600 more units of Epogen, totaling $75, than was ordered by the physician’s
      algorithm.

In total, for these 16 claims, patients received, Beckley billed, and Medicare paid for 247,400
more units of Epogen, totaling $1,938, than was reflected in the physicians’ preestablished
dosing algorithm orders.

More Units of Epogen Administered, Billed, and Paid Than Ordered

For one claim, Beckley’s medical records included the attending physician’s order for Epogen
dated May 23, 2006, using a preestablished dosing algorithm that reduced the units of Epogen
prescribed from 4,000 to 3,000 units, but an assigned staff member did not record the changes in



                                                6

the Fresenius System. Consequently, the Fresenius System printed treatment sheets showing the
original 4,000 units, which were administered for four treatments during the month reviewed. In
total, the patient received, Beckley billed and Medicare paid for 4,000 more units of Epogen,
totaling $30, than were ordered.

Estimate of Overpayments

Based on the sample results, we estimate that Beckley received net overpayments of at least
$25,886 for the administration of Epogen from January 1, 2004, through June 30, 2006, for
which Beckley’s medical and billing records reflected discrepancies between the units of Epogen
ordered by the patients’ attending physicians, and the units administered to the patients billed by
Beckley, and paid by Medicare.

CLAIM WITH A PROCEDURAL ERROR THAT RESULTED IN A DISCREPANCY

For one claim, Beckley’s medical and billing records reflected a discrepancy between the units
of Epogen ordered by the patient’s attending physician and the units administered to the patient,
billed by Beckley, and paid by Medicare for one date of service during the month reviewed that
did not result in an overpayment and is, for purposes of this report, considered a procedural error.
The patient received a lower dose than ordered.

For one claim, Beckley’s medical record included the attending physician’s order, dated
February 24, 2004, to increase the units of Epogen from 10,000 to 12,000 units. The order was
entered into the Fresenius System on a timely basis, and the treatment sheet for February 26,
2004, reflected the change to 12,000 units; however, the printed amount was crossed out and the
nurse administered 10,000 units for one treatment. The medical record did not reflect the reason
for this change. Beckley administered, billed, and was paid for fewer units of Epogen than
ordered.

CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
DISCREPANCIES

The West Virginia Code, Chapter 30, Article 7, defines registered nursing, including licensing
requirements, to include the administration of medications and treatments as prescribed by a
licensed physician. Also, the West Virginia Board of Examiners for Registered Professional
Nurses stated that registered nurses are responsible and accountable for the administration and
clinical management of intravenous therapy, which includes the administration of Epogen. 6

To assist facilities in documenting compliance with Federal and State requirements, the
Fresenius Manual requires an order for all new medications or whenever a medication dose
changes. Nurses are responsible to ensure all medications provided to patients have accurately
documented physician orders. It also requires a physician’s signature for prescription orders, and
a signature or initials of the administering nurse on the treatment sheet that the Epogen has been
administered.

6
The West Virginia Board of Examiners for Registered Professional Nurses position statement “The Role of the
Registered Professional Nurse and the Licensed Practical Nurse in Intravenous Therapy,” dated June 15, 2005


                                                       7

For 10 claims (one claim had multiple errors), the Beckley medical records reflected errors in
documenting the ordering and administering of Epogen because patients’ medical records lacked
the signature of the nurse who administered the Epogen, the patient treatment sheets were
missing, or the medical records lacked attending physicians’ orders, as required by Beckley’s
internal policies, including those in the Fresenius Manual. Beckley administered and billed and
Medicare paid for the units ordered or administered.

    •	 For six claims, covering six patients, the Beckley medical records lacked the signature of
       the administering nurse as required by Beckley’s internal policies, including those in the
       Fresenius Manual. The administering nurse failed to initial or sign the treatment sheet
       reflecting the units of Epogen administered. Beckley billed for and was reimbursed for
       the units ordered and administered.

    •	 For three claims, covering three patients, the Beckley medical records did not reflect the
       treatment sheets for Epogen for one date of service. Because Beckley medical records
       did not include the patients’ treatment sheets, we used the units of Epogen reflected on
       the attending physicians’ orders as the number of units administered by Beckley.
       Beckley administered and billed, and Medicare paid for the total units of Epogen
       prescribed by the attending physicians’ orders for the periods reviewed.

    •	 For two claims, covering two patients, the Beckley medical records lacked the attending
       physicians’ orders covering one or more treatments, as required by Beckley’s internal
       policies, including those in the Fresenius Manual. The nurse administered, Beckley
       billed and Medicare paid for the units of Epogen reflected on the dialysis treatment
       sheets.

FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED

To assist in its facilities’ efforts to comply with requirements under Federal law and States’
respective Nurse Practice Acts, Fresenius established the Fresenius Manual, which includes
medical record policies and documentation procedures. The Fresenius Manual requires that each
facility develop a process to record in the Fresenius System the results of each treatment and
changes to existing treatments, including the dose of Epogen to be administered.

    •	 The Fresenius System prints a treatment sheet for the patient’s next treatment.
       Administering nurses and patient care technicians provide treatment according to
       instructions printed on treatment sheets and administering nurses must ensure that all
       medications provided to the patient have been accurately documented with signed
       attending physician orders. Section A of the Fresenius Manual, “Physician Orders,”
       states that “[p]roviding service without physician orders is in violation of nurse practice
       acts.” Accordingly, the attending physician must provide a written order for the
       administering nurse to begin a new medication or to change the dose of a medication. 7



7
 The Fresenius Manual permits a physician to provide telephone orders; however, the physician must sign the order
during the next facility visit.


                                                        8

   •	 Each facility must develop a process by which the attending physician “flags” charts that
      have new or changed orders so that authorized support personnel can identify that a
      change has occurred and enter the change in the Fresenius System. Also, the Fresenius
      Manual identifies the duties and responsibilities for accurately documenting and updating
      its Fresenius System with changes to a patient’s treatment. After entry into the Fresenius
      System, those changes will be reflected on the patient’s next treatment sheet.

   •	 Results of a patient’s treatment, documented on the treatment sheet, must not be entered
      into the Fresenius System until the treatment is completed. A treatment sheet is
      considered completed after the administering nurse has given the treatment to the patient,
      administered all medications ordered, and confirmed the completion of these tasks by
      including their initials or signatures on the treatment sheet where appropriate.

Although Beckley had controls in place as specified in the Fresenius Manual, based on our
review, Beckley personnel did not always follow all of these procedures. Administering nurses’
determinations of the Epogen doses to administer were not always calculated in accordance with
the Beckley algorithm. Attending physicians’ orders changing the dose of Epogen were not
always identified and entered into the Fresenius System in accordance with signed physicians’
orders. Therefore, the units of Epogen ordered by the attending physicians did not always appear
on patients’ treatment sheets.

Also, attending physician orders, treatment sheets, and signatures of administering nurses were
not always reflected in the Beckley medical records.

RECOMMENDATIONS

We recommend that Beckley:

   •	 refund the $25,886 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by the
      patients’ physicians and the units administered to the patient, billed by Beckley, and paid
      by Medicare.

FRESENIUS COMMENTS

In comments on our draft report, Fresenius stated that it will contact the intermediary about
refunding the $25,886 in overpayments and that the nursing staff will undergo a training program
to improve compliance with policies and procedures relating to the ordering and administration
of Epogen. Fresenius’s comments are included in Appendix C.




                                                9

APPENDIXES

                                                                                 APPENDIX A 



                               SAMPLING METHODOLOGY


POPULATION

The population included 2,829 claims that were paid by Medicare to Fresenius Medical Care—
Beckley for end-stage renal disease services provided from January 1, 2004, through June 30,
2006.

SAMPLING FRAME

Our sampling frame included 2,829 Medicare claims for the administration of Epogen that
totaled $1,698,935.

SAMPLE DESIGN

The audit used a simple random variable sample.

SAMPLE SIZE

The statistical sample consisted of 100 Medicare claims for the administration of Epogen.
                                                                         APPENDIX B 



                       SAMPLE RESULTS AND ESTIMATES 



CLAIMS FOR EPOGEN DOSAGE NOT CONSISTENT WITH PHYSICIANS’ ORDERS


                                 Sample Results

         Number of Claims in Sampling Frame                       2,829

         Value of Sampling Frame                             $1,698,935

         Number of Claims in Sample                                 100

         Value of Sample                                        $58,589

         Number of Claims with Errors                                17

         Value of Errors                                         $1,968



          Estimate of Claims Not Consistent With Physicians’ Orders
              (Limits calculated for a 90-percent confidence interval)

                           Estimated Unallowable Costs

         Point estimate                                         $55,683

         Lower limit                                            $25,886

         Upper limit                                            $85,479
                                                                                     APPENDIX C
                                                                                       Page 1 of 3




                                        'W
                          FfElSenius MedicGlI Care
                               North America


   Juty 29, 2009

   Stephen Virbitsky
   Regional Inspector General for Audit Services
   OffICe of Audit Services, Region III
   Public ledger Building, Suite 316
   150 S. Independence Mall West
   Philadelphia, PA 191~3499

   Re: Audit Draft A-Q3-07.{J()()26, Payments for Emen Administered at
   Fresenius Medical Care - Beckley, West Virginia.

   Dear Mr. Virbitsky:

   Thank you for the opportunity to review and respond to your office's Draft
   Report.

   The results of this draft report are oonsistent with other Medicare claims
   reviews conducted internally by Fresenius staff (as part of Fresenius' ongoing
   compliance audit program activities) and with other external reviews such as
   CERT and PERM. Of the $58,588.26 in claims reviewed, $1,968.00 was
   identified by the audit as not eligible for Medicare reimbursement - reflecting
   3.36% of the sampled claims. This payment error rate compares favorably to
   the most recent May 2008 3.7% CERT national paid claims error rate.

   In response to these audit findings Fresenius will take the following steps:


   OIG Audit Recommendation:

   -ensure that it follows policies and procedures that are consistent with Federal
   requirements in order to avoid discrepancies between the units of Epogen
   ordered by the paUents' physicians and the units administered to the patient,
   billed by Beckley, and paid by Medicare-.




Fresenius Medical Care North America
COfporate Headquarters:    320 Winter Street   Waltham, MA 02451·1457   (781) 699-9000
                                                                                    APPENDIX C
                                                                                      Page 2 of 3




   July 29,2009
   Page 2 of 3


   Fresenius Corrective Action Taken or Planned:

   While the payment error rate is consistent with the CERT audit rate, we
   recognize the need for the facility to improve its compliance with policies and
   procedures relating to the ordering and administration of Epogen. Therefore,
   the dinic will take the following steps:

       •   All nursing staff will undergo an in-service program designed to infonn
           the staff of: (a) the staMes and regulations relating to creating and
           maintaining medical record documentation; (b) the applicable
           Fresenius policies, including but not limited to documentation of
           physician orders and a}gorithm dose change calculations; (c) the
           responsibility of each staff member to oonfonn to applicable staMes,
           regulations, and policies; and (d) the consequences of failing to comply
           with applicable Fresenius policies. All new nursing staff members will
           continue to undergo Fresenius training which indudes the foregoing
           topics.
       •   Consistent with the Part 494 Conditions for Coverage (42 CFR Section
           494.110 Condition: Quality assessment and performance
           improvement) for the next 12 months the facility's Quality Assessment
           and Improvement Process will review a sampling of active medical
           records to monitor improved compliance with applicable Fresenius
           medical record documentation policies.
       •   The 2010 Fresenius Compliance Audit program will include a review of
           (a) the training activity above, to ensure that all affected employees
           were trained; (b) the Quality Assessment and Improvement process, to
           ensure that the aforementioned reviews occurred; and (c) an
           assessment of whether the training and monitoring has been effective
           in causing the facility to confonn to applicable Fresenius policies.

OIG Audit Recommendation:

"refund the $25,866 in overpayments~

Fresenlus Corrective Action Taken or Planned:

   •   Given the age of these claims, we will contact the intermediary to
       determine the process to repay overpayments.


Fresenlus Medical Care North America
Corporate Headquarters:   920 Winter Street   Waltham, MA 02451-1457   (781) 699-9000
                                                                                       APPENDIX C
                                                                                         Page 3 of 3 





    July 29, 2009
    Page 3 of 3

Finally, I nole that In the Background section of the Introduction, the audit states:

        ·Some facilities may also use a preestablished dosing algorithm. The
        algorithm is a formula established by the facility Medical Director and
        ordered by the physician.·

At Fresenius Medical Care clinics, while the facility Medical Director and
Governing Body review and approve algorithms ordered by staff physicians, it is
the staff physician (and not the medical director) who establishes the algorithm
for the staff physician's patients. While often all physicians at the clinic (including
the staff physician who serves as medical director) agree to use a single
algorithm, It is the staff physician rather than the medical director who establishes
an algorithm for a particular patient.

Sincerely,




Todd Kerr
Senior VICe President and Chief Compliance OffICer
Fresenius Medical Care North America
920 Winter Street
Waltham, MA 02451




Fresenius Medical Care North America
Corporate Headquarten:   920 Winter Street   Waltham, MA 024S1-14S1   (181) 699-9000
